TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                                 Report on Review of
                           Fiscal Year 2002 Incurred Costs



                                          September 2005

                              Reference Number: 2005-1C-119




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
 and information determined to be restricted from public release has been redacted from this document.


 Web Site           | http://www.tigta.gov
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                         September 15, 2005


 MEMORANDUM FOR DAVID A. GRANT
                DIRECTOR OF PROCUREMENT
                INTERNAL REVENUE SERVICE




 FROM:                       Daniel R. Devlin
                             Assistant Inspector General for Audit (Headquarters Operations
                             and Exempt Organizations Programs)

 SUBJECT:                    Report on Review of Fiscal Year 2002 Incurred Costs
                             (Audit # 20051C0229)

 The Defense Contract Audit Agency (DCAA) reviewed the contractor’s December 16, 2004,
 certified final indirect cost proposal and related books and records for reimbursement of Fiscal
 Year 2002 incurred costs. The purpose of the review was to establish indirect cost rates for the
 period. The proposed rates apply primarily to the flexibly priced (sub) contracts.
 The DCAA determined no significant costs were questioned in prior years and no indicators of
 audit risk had been identified. Accordingly, the DCAA limited its review to the verification of
 the mathematical accuracy of the proposal, claimed costs for unusual items, items having
 obvious potential for including significant unallowable costs, and compliance with special
 contract terms and conditions.
 The DCAA noted nothing came to its attention that caused it to believe significant costs claimed
 on the Federal Government contracts were unallowable, unallocable, or unreasonable.
 According to the DCAA, the costs noted on the schedule of cumulative allowable costs represent
 costs that are considered allowable under each (sub) contract and, therefore, are reimbursable.
 The information in this report should not be used for purposes other than those intended without
 prior consultation with the Treasury Inspector General for Tax Administration regarding their
 applicability.
                      Report on Review of Fiscal Year 2002 Incurred Costs




If you have any questions, please contact me at (202) 622-8500 or John R. Wright, Director, at
(202) 927-7077.


Attachment




                                                                                                 2
                                    NOTICE:
The Office of Inspector General for Tax Administration has no objection to the release of
this report, at the discretion of the contracting officer, to duly authorized representatives
of the contractor.
The contractor information contained in this report is proprietary information. The
restrictions of 18 U.S.C. § 1905 must be followed in releasing any information to the
public.
This report may not be released without the approval of this office, except to an agency
requesting the report for use in negotiating or administering a contract with the
contractor.
